<html>
<title> - SUSAN JOHNSON GRANT NOMINATION</title>
<body><pre>[Senate Hearing 108-422]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-422

                     SUSAN JOHNSON GRANT NOMINATION

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                 on the

   NOMINATION OF SUSAN JOHNSON GRANT, NOMINEE TO BE CHIEF FINANCIAL 
                  OFFICER OF THE DEPARTMENT OF ENERGY

                               __________

                           FEBRUARY 26, 2004


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                 ______

93-217              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
DON NICKLES, Oklahoma                JEFF BINGAMAN, New Mexico
LARRY E. CRAIG, Idaho                DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
LAMAR ALEXANDER, Tennessee           RON WYDEN, Oregon
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
JAMES M. TALENT, Missouri            MARY L. LANDRIEU, Louisiana
CONRAD BURNS, Montana                EVAN BAYH, Indiana
GORDON SMITH, Oregon                 DIANNE FEINSTEIN, California
JIM BUNNING, Kentucky                CHARLES E. SCHUMER, New York
JON KYL, Arizona                     MARIA CANTWELL, Washington

                       Alex Flint, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Domenici, Hon. Pete V., U.S. Senator from New Mexico.............     1
Grant, Susan Johnson, Nominee to be Chief Financial Officer, 
  Department of Energy...........................................     2
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     7

                                APPENDIX

Responses to additional questions................................     9

 
                     SUSAN JOHNSON GRANT NOMINATION

                              ----------                              


                      THURSDAY, FEBRUARY 26, 2004

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.

    The committee met, pursuant to notice, at 2:30 p.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Pete V. 
Domenici, chairman, presiding.

          OPENING STATEMENT OF HON. PETE V. DOMENICI, 
                  U.S. SENATOR FROM NEW MEXICO

    The Chairman. I have just been informed the minority 
member, Senator Bingaman, asks that I proceed on the basis that 
he has already talked with you. So with that, we will get going 
here.
    The first thing I wanted to recognize is that you have--the 
reason we have a crowd is because you have all your relatives 
here. And so why do we not start with just asking them to stand 
up? And I will just say that it is good that you have so many 
wonderful relatives who would be supporting you. And you have 
told me that your husband and your 84-year-old father are here.
    Ms. Grant. Yes, sir.
    The Chairman. And I am just going to say all of the rest of 
you cannot be any closer than those two, so we are going to say 
thanks to all of you through them for coming.
    It is not going to take us long, and her desire that she 
get this job--other things go slow once they get to the Senate, 
Susan, which is not my doing.
    [Laughter.]
    The Chairman. Good afternoon and welcome for this hearing 
where we are going to consider the nomination, your nomination 
to be Chief Financial Officer for the Department of Energy. The 
rules of the committee, which apply to all nominees requires 
that they, one, be sworn in in connection with their testimony.
    Please rise and raise your right hand.
    Do you solemnly swear that the testimony you are about to 
give to the Senate Committee on Energy and Natural Resources 
shall be the truth, the whole truth and nothing but the truth?
    Ms. Grant. I do.
    The Chairman. Please be seated.
    [Pause.]
    The Chairman. Before we begin your statement, I will ask 
you three questions that are addressed to each nominee before 
this committee.
    One, will you be available before the committee and other 
congressional committees to represent the Department's position 
and respond to issues of concern to the Congress?
    Ms. Grant. I will.
    The Chairman. Are you aware of any personal holdings, 
investments, or interests that could constitute a conflict or 
create the appearance of such a conflict should you be 
confirmed and assume the office to which you are being 
nominated by the President?
    Ms. Grant. My investments, personal holdings and other 
interests have been reviewed both by myself and the appropriate 
ethics counselors within the Federal Government. I have taken 
appropriate action to avoid any conflicts of interest. There 
are no conflicts of interest or appearances thereof to my 
knowledge.
    The Chairman. Are you involved or do you have any assets 
held in blind trust?
    Ms. Grant. No.
    The Chairman. Let me say that it is a challenge these days 
to find qualified individuals who are willing to serve and 
devote themselves to government service, so I want to thank you 
for your long history of competent service to our government 
and your willingness to accept this position at the Department.
    I understand that you have--I was repeating your family. 
That is already done.
    [Laughter.]
    The Chairman. I wanted to say to you before you give your 
statement, which I hope is brief--and what you do not say we 
will make a part of the record. I just want to tell you that I 
have more than a bit of knowledge of the Department of Energy, 
and it is a very, very tough department, very confusing and 
very--there is no straight line to very many things. They curl 
and go around the table and all kinds of funny things.
    You have a very tough job catching on and getting it done, 
but I think that if you are really as diligent and--that--as 
diligent as you are committed, things will work out.
    I want to indicate to you, as chairman of the committee, I 
also happen to be chairman of the subcommittee which pays for 
all of what you do, and I would be very glad to at any time you 
would like to confer or discuss with you whatever you would 
like.
    With that, could you give us your opening statement? 
Whatever you have ready will be made a part of the record, and 
you take 5 minutes and give us your statement.

STATEMENT OF SUSAN JOHNSON GRANT, NOMINEE TO BE CHIEF FINANCIAL 
                 OFFICER, DEPARTMENT OF ENERGY

    Ms. Grant. Thank you, Mr. Chairman. Thank you for the 
opportunity to appear before you today.
    I am honored to be the President's nominee to be Chief 
Financial Officer at the Department of Energy. And I have 
submitted a formal statement, and I appreciate you including 
that, sir. If I could, I would like to briefly summarize my 
statement.
    Before I begin, because it is extremely important to me to 
have my family and friends here, I do want to recognize them 
myself, as you have done, and I appreciate that, sir. My 
strongest supporter and trusted partner is my husband, Douglas 
Grant, a former Air Force Colonel, who served the Nation in 
uniform for 24 years.
    My anchor and my guide is my father, C.A. Johnson, a World 
War II veteran, and my stepmother, Ann; my sage advisor, my 
father-in-law, Edmund Grant, also a World War II Veteran and 
his wife Marie; and my siblings, my brother, Charles Johnson 
and wife, Betty; my sister, Faye Johnson; my sister, Brenda 
Johnson King; my brother, Richard Johnson; my brother-in-law, 
Jeffrey Grant, and rounding out the group--and my brother, 
Richard Johnson. And rounding out the group are my Aunt Annette 
and Uncle Billy Benefield and my good friends, Melody Robinson, 
Hyesuk Bellino and Richard Aiken.
    And, Mr. Chairman, you know it is family and friends that 
keep us grounded and remind us what public service is all 
about.
    And good government is about what we do every day as 
responsible stewards for the American taxpayer. Public service 
is a trust. It is a calling that I take with utmost 
seriousness. I believe it important to tell you a little bit 
about myself, what I bring to the table, and what you as the 
Department's oversight body can expect from me.
    First, I have served the Nation as a public servant for 
over 30 years in the Defense Department, from weapon system 
development as a logistician, to manpower management as a 
budget officer, to fiscal responsibility as the chief financial 
officer in my present position at the Defense Finance and 
Accounting Service. I am a responsible, fully accountable and 
engaged manager and leader.
    Second, growing up in the Defense Department brings with it 
considerable rigor, structure and accountability. The resource 
management process has at its very core a strict discipline, 
where planning drives budget, which results in execution and 
tracks back to planning. A disciplined review process 
throughout the cycle ensures planning is focused on 
quantifiable needs, and final budget decisions are focused on 
maximizing mission accomplishment with minimum resources.
    This process produces results. Using this rigor in the 
Defense Finance and Accounting Service, we reduced our costs to 
our military customers by over $250 million in the last two 
fiscal years, while exceeding previous quality levels. I like 
that discipline. It is a closed-loop system and ensures that 
resources are tied to results. If confirmed, I would pursue a 
similar disciplined approach for ensuring strategy drives 
budget, is linked to execution, and is measured by results.
    Third, I believe we should manage the Government more like 
a business with an open book policy. There is room to adopt 
solid financial business practices in all areas of government, 
regardless of how efficient or effective we may believe our 
operations to be.
    Financial transactions result from business decisions, not 
vice versa, and sound accounting principles dictate the 
treatment of those transactions on the financial statements. 
That is universal, or should be, and is what the Chief 
Financial Officers Act of 1990 is all about in its move to 
bring government accounting more in line with private sector 
accounting.
    I am proud to say that, under my leadership, the Defense 
Finance and Accounting Service became the first operational 
entity to receive an unqualified or clean opinion on its 
financial statements. That means that our records conformed 
with accounting principles generally accepted in the United 
States, not just in government. And not only did we receive one 
such opinion, we have now received four consecutive clean 
opinions.
    Equally important, the Department of Energy has received 
clean opinions for the last 5 years. If I am confirmed, a top 
priority of mine will be to ensure that this record of success 
continues.
    At the same time, it is important to keep in mind that 
audits are a means to an end, and not an end unto themselves. 
It is really about using quality information to improve the 
decision making process. Successful businesses operations, 
regardless of private or public sector focus, need forward-
looking information, or what I like to refer to as front 
windshield versus rearview mirror snapshots.
    So often our financial information is more akin to rearview 
mirror data, telling us where we have been instead of what we 
need to know about where we are going. Managers need 
intelligence, business intelligence, not just more financial 
data. If confirmed, I would work to provide the Department's 
managers the information they need to make informed decisions, 
providing better business intelligence for decision makers.
    Fourth, I am a solid proponent of performance measurement 
and, with that, you get the accountability in government we all 
want. We all recognize you get what you measure, so identifying 
the appropriate kinds of metrics is critical to successful 
organizations.
    I believe performance measurement success comes when an 
organization moves from identifying inputs, raw materials, and 
goes beyond outputs, producing widgets, to focusing on outcomes 
or results.
    At the Defense Finance and Accounting Service, through the 
use of metrics, we cascaded the balanced scorecard throughout 
the agency linking organizational and individual performance 
plans to these measures. As a senior executive, my individual 
performance evaluation is directly tied to my organization's 
performance measures and, likewise, I link the individual 
performance plans of my direct reports to their organizational 
measures. This is performance accountability at work. If 
confirmed, I would continue this pursuit for performance 
measurement and accountability in government operations.
    And finally, relationship management and the value of solid 
working relationships built on mutual respect, confidence in 
information sharing, and open communications. If I am 
confirmed, I want to build on the relationship between the 
Department's Chief Financial Officer and this committee and 
other committees to pursue what is best for the Nation as a 
whole. You can count on me to be open, honest, and forthright.
    Mr. Chairman, I grew up on a farm in rural Georgia, a proud 
daughter of C.A. Johnson. My father taught me many things. I 
recall one very important piece of advice he gave me, and I 
want to share it with you all in closing. He taught me while 
there are many ways you can get your foot in the door, there's 
only one way you can keep it there, and that is through your 
skill, ability, and integrity. I come before you today, I 
believe, well equipped for the task at hand.
    If confirmed, I pledge to work with you to remain in the 
door, just like my daddy taught me.
    Mr. Chairman, this concludes my statement. Thank you for 
your consideration of my nomination and the opportunity to 
appear before you today. I would be pleased to respond to any 
questions you all may have.
    The Chairman. Thank you very much.
    [The prepared statement of Ms. Grant follows:]
    Prepared Statement of Susan Johnson Grant, Nominee To Be Chief 
                Financial Officer, Department of Energy
    Chairman Domenici, Senator Bingaman, and distinguished Members of 
the Committee, I am honored to appear before you today as President 
Bush's nominee to be the Chief Financial Officer of the Department of 
Energy. I am also extremely grateful for the confidence that Secretary 
Abraham has placed in me.
    Mr. Chairman, I would like to introduce my support group who has 
accompanied me today, a select group of family members and special 
friends. My most ardent supporter, valued friend, and trusted partner, 
my husband, Douglas Grant, a former Air Force colonel. My father, C. A. 
Johnson, a World War II Veteran hailing from the great state of Georgia 
and my stepmother, Ann. My father-in-law, Edmund Grant, also a World 
War II Veteran representing the state of Florida and his wife Marie. 
And my siblings: my brother Charles Johnson and wife Betty; my sister 
Faye Johnson; my sister Brenda Johnson King; and my brother Richard 
Johnson. Each of them is also from Georgia with the exception of my 
sister Faye who joins us from Nevada. I am also pleased to have my Aunt 
Annette and Uncle Billy Benefield, also from Georgia, here and my good 
friends, Melody Robinson, Hyesuk Bellino and Richard Aiken. I want to 
thank all those assembled today as well as those family members and 
friends unable to attend for their unending support.
    I have served the Nation as a public servant for the past 30 years 
and, if confirmed, I will continue to put the interests of the Nation 
as my top priority. Public service is a trust, a calling that I take 
with utmost seriousness. I believe it important to tell you a little 
about myself, what I bring to the table, and what you as the 
Department's oversight body can expect from me.
    First, as you may be aware, my entire career has been in Defense 
and it has been focused on one facet or another within the resource 
management arena. From weapon system development as a logistician to 
manpower management as a budget officer to fiscal responsibility as a 
chief financial officer in my present position, I am a fully 
accountable, responsible and engaged manager and leader. These 
attributes are directly transferable to the Department of Energy.
    Second, growing up in the Defense Department brings with it a 
certain amount of rigor, structure and accountability. The resource 
management and funds distribution process within Defense, what we refer 
to as the Planning, Program, Budgeting and Execution System, has at its 
very core a strict discipline. That discipline is founded in the need 
for a viable strategic planning process driven by mission priorities, 
integrated with resource allocation practices and linked to execution 
in measurable ways, in other words planning drives budget which results 
in execution and tracks back to a plan. A disciplined review process 
throughout the cycle ensures planning is focused on quantifiable needs 
and final budget decisions are focused on maximizing mission 
accomplishment with minimum resources. It's the basic capability needs 
assessment with gaps in performance levels defined, evaluated and 
resource levels quantified for trade-off decisions. This process 
produces results. Using this rigor in the Defense Finance and 
Accounting Service, we reduced our costs to our military customers by 
over $250 million in the last two fiscal years. I like that discipline 
as it's a closed-loop system and ensures that resources are tied to 
results. If confirmed, I would pursue a similar disciplined approach 
for ensuring strategy drives budget, is linked to execution and 
measured by results.
    Third, I believe we should manage the government more like a 
business with an open book policy. There is room to adopt solid 
financial business practices in all areas of government operations, 
regardless of how efficient or effective we may believe our operations 
to be. The Chief Financial Officers Act of 1990 outlined certain 
statutory responsibilities for the CFO. Prominent among them is the 
preparation of an annual report that includes the Department's 
financial statements and audit. Financial transactions result from 
business decisions, not vice versa, and sound accounting principles 
dictate the treatment of those transactions on the financial 
statements. That's universal, or should be, and is what the CFO Act of 
1990 is all about in its move to bring government accounting more in 
line with private sector accounting.
    I am proud to say that, under my leadership, the Defense Finance 
and Accounting Service became the first operational entity in the 
Defense Department to receive an unqualified or clean audit opinion on 
its financial statements. This means that our records conformed with 
accounting principles generally accepted in the U.S., not just in 
government. Not only did we receive one such opinion, but we have now 
received four consecutive clean audit opinions. These annual audits 
were conducted by two different independent private sector audit firms 
with the most recent audit occurring while we converted to a new 
accounting system. Obtaining a clean opinion builds credibility with 
organizational stakeholders and instills confidence in the fiscal 
health upon which the organization rests. Equally important, the 
Department of Energy has received clean opinions for the last five 
years. If I am confirmed, a top priority of mine will be to ensure that 
this noteworthy record of success continues.
    At the same time, if confirmed, I would work to provide the 
Department's managers the information they need to make informed 
decisions, providing better business intelligence for decision-makers. 
Audits are a means to an end, not an end unto themselves. It's really 
about using quality information to improve the decision making process 
and successful businesses need forward-looking information, or what I 
like to refer to as ``front windshield'' versus ``rear view mirror'' 
snapshots. So often, our financial information has been more akin to 
rear view mirror data, telling us where we've been instead of what we 
need to know about where we're going. This analogy ties back to my 
earlier remarks on the disciplined review process and the need for the 
direct linkage between mission and budget priorities. Managers need 
intelligence, business intelligence, not just more financial data. If 
confirmed, this will continue to be a priority for me--to ensure that 
financial data is turned into information to enable knowledge for sound 
business decision making.
    Fourth, I am a solid proponent of performance measurement and with 
that you get the accountability in government we all want. We all 
recognize you get what you measure, so identifying the appropriate 
kinds of metrics is critical to successful organizations. Influencing 
the right behavior through appropriate measurement programs is both 
science and art. The science is embedded in understanding the business 
side of the equation and the application of applicable measurement 
techniques, such as six sigma. The art is resident in the cultural 
aspects associated with change management, such as lean thinking that 
focuses on customer value and the pursuit of perfection. I believe 
performance measurement success comes when an organization moves from 
identifying inputs (raw materials), and goes beyond outputs (producing 
widgets) focusing on outcomes (results).
    As the CFO for the Defense Finance and Accounting Service, I led 
the initiative to implement a performance measurement program for the 
finance and accounting function. We adopted a balanced scorecard 
methodology to measure our progress in attaining our goals and 
integrated this with a performance management process that aligns 
employee performance standards with scorecard metrics. At the Defense 
Finance and Accounting Service, through the use of metrics, we cascaded 
the balanced scorecard throughout the Agency linking organizational and 
individual performance plans to these measures. As a Senior Executive, 
my individual performance evaluation is directly tied to my 
organization's performance measures and, likewise, I link the 
individual performance plans of my direct reports to their measures. 
This is performance accountability at work. If confirmed, I would 
continue this pursuit for performance measurement and accountability in 
government operations.
    Finally, I applaud the desire to continue developing a solid 
working relationship between the Department's Chief Financial Officer 
and the staff of this Committee and other Committees. These 
relationships are built on mutual respect, confidence in information 
sharing, and open communication. If I am confirmed, I want to build on 
those relationships to pursue what's best for the Nation as a whole. As 
a public servant, I will endeavor to ensure that the Congress gets the 
information it wants when it wants it and that the information is 
accurate and reliable. You can count on me to be open, honest, and 
forthright.
    I began my remarks stating my intent to tell you about me and the 
take-aways I trust I have offered are:

  <bullet> I am a firm believer in ``business is business'' and 
        ``financial management is financial management'' and sound 
        financial management transcends the business commodity, whether 
        it's private sector, Defense, or Energy.
  <bullet> Discipline, review and measurement, accountability and an 
        open book policy make strong partnerships.
  <bullet> Relationship management is all about communication and 
        trust.
  <bullet> I have delivered and, if confirmed, I will continue to do 
        so.

    I grew up on a farm in rural Georgia, a proud daughter of C.A. 
Johnson. My father taught me many things. I recall one very important 
piece of advice he gave me and I want to share it with you all in 
closing. He taught me that while there are many ways you can get your 
foot in the door, there's only one way you can keep it there and that's 
through your skill, ability, and integrity. I come before you today, I 
believe, well equipped for the task ahead, and if confirmed, I pledge 
to work with you to remain in the door.
    Mr. Chairman and Members of the Committee, this concludes my 
statement. Thank you for your consideration of my nomination and the 
opportunity to appear before you today. I would be pleased to respond 
to any questions you may have.

    The Chairman. The Senator from Wyoming is here. Senator 
Thomas, do you have any questions?
    Senator Thomas. No, sir. I would like, if I might, just to 
take--make a short statement, however.
    The Chairman. Please do.

         STATEMENT OF HON. CRAIG THOMAS, U.S. SENATOR 
                          FROM WYOMING

    Senator Thomas. We are glad to have you here. Certainly 
your financial role will be very important, and I just wanted 
to share with you some ideas that I hope that we can follow in 
the Department of Energy. I think we have to have a policy. We 
have a long ways to go to provide this country with the energy 
that it needs, and we need to plan to do that.
    For instance, in coal, we need the research so we can have 
clean air, so we can use that fossil resource, which is our 
largest supply. We need to look at the alternative uses, such 
as the hydrogen that we are talking about doing. And in that 
regard, of course, we are talking about the future gen 
facility. And obviously, I would like to see them look at 
Wyoming where the major coal is produced.
    We need to take a look at our gas production. We can 
produce more. We need more permitting and to be able to move it 
there. We need to, I believe, begin to continue to have the 
Federal research facilities, such as RMOTC in Wyoming that 
does, for instance, now is working on sequestering 
CO<INF>2</INF>. They were not even in the budget last year. 
They are in this year, but we need to pursue those things.
    So I guess all I am saying is: It seems to me one of the 
responsibilities of the Department of Energy--and I am sure the 
Secretary is working that way--is to begin to try and develop a 
vision of where we need to go to deal with this question of 
providing the energy this country needs over the 10, 15 years 
in the future, and then to be able to set up a policy and see 
that we are moving in that direction. And the things we decide 
on intermediately will lead us to the goals that we have set. 
So we look forward to working with you and trying to move in 
that direction. And we are glad you are here.
    Ms. Grant. Thank you, sir.
    The Chairman. Thank you very much, Senator.
    Your background and statement, as well as the information 
you supplied in response to our committee questionnaire 
demonstrates your considerable qualifications for this 
position.
    I do have a couple of questions related to associations 
that you and your husband have with government contractors, and 
your response to these would probably be best detailed in 
writing. So I ask that you agree to respond promptly to the 
written questions from me and other members following this 
hearing. Those responses will become part of this record as if 
they were given today.
    Now, frankly, I know you will want to answer them, but if 
you or anybody over at that agency you are going to work for 
would have the fancy idea that you should not answer them, then 
you understand it does not harm me; it just means you will not 
be confirmed. So that would not be a very nice position, so I 
hope you will answer them quickly.
    Ms. Grant. Yes, sir.
    The Chairman. They are pretty routine when we know what you 
have done. We are not trying to pry or anything, so if you will 
get them done quickly, you will get confirmed quickly.
    Ms. Grant. Yes, sir.
    The Chairman. And that means very quickly, so I call on you 
to do that.
    My observations have to do with the gigantic misnomer that 
exists when we call your Department, ``The Department of 
Energy.'' Everybody in the country, including the oldest 
relative you have here, would--when you asked them ``What does 
the Department of Energy do,'' he would say, ``Well, they 
probably help the country produce energy.'' Well, just so you 
will know, that is not what it is at all.
    It controls the nuclear weapons of the country. It has very 
little to do with the idea of being the Department of Energy, 
does it? It controls all kinds of peripheral issues that have 
little to do with energy. And over time, they have become part 
of what you have to work with.
    It will not be easy and it will not take just a few weeks. 
And there are some experts around that have done the financing. 
Do not hesitate to ask them. They have had a couple of pretty 
good ones over the past decade, not very many, but a couple. 
And you can ask us or you can find out who they are, if you 
want to ask what the kind of skills are that you ought to 
develop to do that job.
    I know you are all here for this big event, and I do not 
want to keep you any longer. I want to thank you, all of you, 
for showing your--by coming, you show us that her relatives 
think she is a great gal, a wonderful woman, and she ought to 
get this job.
    We have said ``okay'' to an awful lot of men and women that 
could not muster up this many friends and relatives if we gave 
them two different hearings in three days. They just do not 
have them, but it is good that you have shown us that you do.
    With that, awaiting your responses, which will be made a 
part of this record, we stand in recess.
    Ms. Grant. Thank you.
    The Chairman. Thank you.
    [Whereupon, at 2:50 p.m., the hearing was adjourned.]


                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

                              Department of Energy,
     Office of Congressional and Intergovernmental Affairs,
                                     Washington, DC, March 5, 2004.
Hon. Pete Domenici,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Mr. Chairman: Please find enclosed, responses to questions 
from the Senate Energy and Natural Resources Committee for Ms. Susan 
Johnson Grant, nominee to be Chief Financial Officer for the Department 
of Energy.
    If you have any questions or need further assistance, please do not 
hesitate to contact me.
            Sincerely,
                                          Rick A. Dearborn,
                                               Assistant Secretary.
[Enclosure]
               Response to Question From Senator Domenici
    Question. You have noted in your Committee questionnaire that your 
spouse is an employee of a contractor who has considerable business 
dealings with the Department of Energy. Please describe more 
specifically your spouse's position, including the extent to which his 
position may be associated with Department of Energy programs.
    Answer. Mr. Douglas Grant is a Department Manager and Vice 
President at SAIC. As a Department Manager, Mr. Grant oversees a 45-
person organization with annual revenues of less than $7 million. SAIC 
is a company of over 42,000 employees with annual revenues over one 
billion dollars. Assistant Vice President is the lowest officer title 
in the company, followed by Vice President, Mr. Grant's title. 
Assistant Vice President and Vice President titles are based upon 
revenue levels managed. There are over 1,500 Assistant Vice Presidents 
and Vice Presidents in the company. Corporate officer-ship, those 
levels distinctly above Assistant Vice President and Vice President, is 
comprised of over 500 senior managers spanning some 25 different levels 
or categories.
    All contract work under Mr. Grant's management supports the Air 
Force, especially the Deputy Chief of Staff for Air and Space 
Operations, Headquarters Air Force, located in the Pentagon. Mr. Grant 
has no contracts with DOE, nor does he or anyone under his management 
interface with any DOE organization in any advisory capacity.

                                 ______
                                 
              Responses to Questions From Senator Schumer

    Question. Ms. Grant, as the Department of Energy's Chief Financial 
Officer, I understand that a large part of your duties would relate to 
determining the proper sources and timing of funds to be reprogrammed 
within the Department of Energy to ensure the most efficient and 
effective execution of departmental programs. Could you please 
elaborate on what criteria you intend to use in evaluating 
reprogramming proposals?
    Answer. As directed by Public Laws and Congressional Reports, the 
Department will promptly inform the House and Senate Committees on 
Appropriations and relevant Authorization Committees when a change in 
program execution or funding is required during the fiscal year. 
Reallocations of new or prior year budget authority or prior year 
deobligations will be submitted to the Committees in writing and will 
not be implemented prior to approval by the Committees on 
Appropriations. Reprogramming requests will be considered when an 
unforeseen situation arises, and then only if delay of the project or 
activity until the next appropriations year would result in a 
detrimental impact to a Departmental program or priority. In addition, 
a reprogramming request may be provided to the Committees if a general 
reduction or prior year balance reduction unduly impacts a specific 
program, project or activity.
    Reprogramming's would also be evaluated if the funding increase 
results in a significant cost savings to a program or activity. If a 
reprogramming intends to initiate new programs or to change program, 
project, or activity allocations that were denied, limited, reduced or 
increased by Congress, the Department would provide a proposal in 
advance to the Committees that fully justifies and explains the 
request.
    Question. Currently, Congressional earmarks and other factors have 
led to a drastic reduction in the Department of Energy's budget for 
high temperature superconductivity (HTSC), which is a technology that 
promises to have tremendously positive impacts on system reliability, 
transmission capacity and the environment. The amount of funding 
provided for the development of this technology in FY04 has been 
reduced from approximately $48 million to less than $31 million. The 
cuts being faced by the program could lead to severe erosion of the 
knowledge base and infrastructure needed to bring this program to 
fruition. Would you be willing work with the Committee to identify and 
reprogram idle or low-priority funds that could be transferred to 
restore the HTSC program budget?
    Answer. I am willing to work with the Committees on the Office of 
Electricity Transmission and Distribution's high temperature 
superconductivity funding situation.


</pre></body></html>
